                              Closeout for M98040013

    In January of 1998, OIG received the first of three telephone calls from the
complainant' who alleged his colleagues misappropriated his ideas and used them
in proposals to NSF and other agencies. He provided details in a document, which
arrived on April 20, 1998, that described a professional situation that had
deteriorated significantly over a period of more than a decade.
   The complainant's document indicated that he and three colleagues submitted a
proposal (the complainant was the PI and his colleagues were the co-PIS)to NSF in
1988 (the proposal).2 The proposal was declined, and the complainant alleged his
colleagues (subjects 1, 2, and 3) committed intellectual theft when they
subsequently, with his Chairperson's (subject 4) knowledge and assistance,
submitted variations of this proposal to NSF without him. 3 The complainant said
the second of these NSF proposals was funded (the grant). The complainant felt he
should have been given some of the grant money and included in the project because
he was the one who had suggested the research topic, and he believed their grant
was based on his ideas. He said the subjects told him that after assessing the
reviewers' comments on the proposal, they used only their ideas in the grant, and
that they had removed his contributions from the grant.
   Obtaining accurate, verifiable recollections about who contributed what to a
proposal 10 years ago would be difficult. Each person named on the grant has a n
NSF-submission record that indicates research activities in this general area before
working with the complainant and abilities to develop a n NSF proposal. Therefore,
given the age of the complaint, the nature of collaborations, and the existence of
prior interest on the part of the subjects in the research project, we believe there is
insufficient substance to pursue this allegation.
   The complainant also alleged that in 1988 subject 4 included his name a s a co-
author on a laboratory manual the complainant alone had written in 1978. The
complainant said parts of that laboratory material were used, without his
permission, but with subject 4's permission, by other faculty members (subjects 5
and 6) in.their 1993 laboratory equipment proposal to NSF.4 The complainant said
that shortly after he told subject 5 he was the original author of material in the
proposal, subject 4 asked him to sign a letter giving subject 5 permission to use
material from his laboratory manual in subject 5's proposal. The complainant
agreed a t the time, but now says he was pressured into signing the letter. After the
passage of so much time, it would be difficult to establish the extent of subject 4's
contribution, if any, to the laboratory manual, or the extent to which he would have

   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).



                                       Page 1 of 2
-           .--               - -.       - -=   -   .   --    -   .




                                     Closeout for M98040013



    been free-as co-author-to give permission to others to use portions of it. The
    complainant's statements do not indicate that subjects 5 or 6 did anything
    improper-they believed they had legitimate permission from subject 4 to use the
    material, and additionally, obtained written permission from the complainant to use
    the information. We do not have jurisdiction over the alleged actions of subject 4,
    that he inappropriately put his name on the laboratory manual a s co-author,
    because they were not related to NSF activities.
        Thus, there is insufficient evidence to proceed with a n investigation into the first
    allegation of plagiarism, and we lack jurisdiction with respect to the second
    allegation. This inquiry is closed and no further action will be taken on this case.

    cc: Integrity, IG




                                                Page 2 of 2
